           OFFICE OF
    THE INSPECTOR GENERAL
SOCIAL SECURITY ADMINISTRATION

  SUPPLEMENTAL SECURITY INCOME
RECIPIENTS WHOSE MEDICARE BENEFITS
  WERE TERMINATED DUE TO DEATH


    October 2012   A-01-11-01135




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation
MEMORANDUM

Date:      October 12, 2012                                                        Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Supplemental Security Income Recipients Whose Medicare Benefits Were Terminated
           Due to Death (A-01-11-01135)



           OBJECTIVE
           To determine whether Supplemental Security Income (SSI) payments should be
           terminated for recipients whose Medicare benefit records indicated they were deceased.

           BACKGROUND
           The Social Security Administration (SSA) administers the SSI program, which provides
           a minimum level of income to financially needy individuals who are aged, blind, or
           disabled. 1 The Centers for Medicare and Medicaid Services, within the Department of
           Health and Human Services, administers the Medicare program, which provides health
           insurance to the aged and disabled. 2 However, SSA is responsible for making
           Medicare entitlement determinations and maintaining the benefit records.

           In November 2006, we issued a report on Supplemental Security Income Recipients
           Whose Medicare Benefits Were Terminated Due to Death. 3 That report identified
           251 individuals whose SSI payments continued even though their Medicare records
           indicated they were deceased. Of these 251 individuals, 86 were deceased and their
           SSI payments should have been terminated; and 165 were alive and their Medicare
           benefits were incorrectly terminated.

           To identify deceased individuals and prevent erroneous payments after death, SSA
           matches death records from Federal, State, and local agencies against its payment

           1
               Social Security Act § 1601, et seq., 42 U.S.C. § 1381, et seq.
           2
               Social Security Act § 1801, et seq., 42 U.S.C. § 1395, et seq.
           3
            SSA OIG, Supplemental Security Income Recipients Whose Medicare Benefits Were Terminated Due to
           Death (A-01-06-26105), November 14, 2006.
Page 2 – The Commissioner


records. 4 For death records to process, an individual’s name, date of birth, and other
identifying information must match SSA’s records within certain tolerances. When
records match, SSA’s systems automatically terminate the SSI payments and Medicare
benefits to deceased individuals.

To conduct our current review, we matched a file of over 3 million Medicare records,
coded terminated due to death in SSA’s system as of July 2011, against a file of SSI
records as of October 2011. This match identified 1.48 million SSI records terminated
due to death. In addition, this match identified 346 SSI records not terminated due to
death that were in current or suspended payment status. In March 2012, we narrowed
the records to 52 individuals whose SSI payments continued even though their
Medicare records were terminated due to death. (See Table B-1 in Appendix B for a
summary of the cases by State.)

We attempted to contact these 52 individuals by telephone and mail to determine
whether they were deceased or alive. If we were unable to contact the individuals,
relatives, or representative payees, 5 we researched Internet sources and contacted the
State Bureaus of Vital Statistics. See Appendix B for additional scope and
methodology.

RESULTS OF REVIEW
SSA should terminate SSI payments for some individuals whose Medicare records were
terminated for death. Specifically, of the 52 individuals identified:
•     30 were deceased, and SSI payments should have been terminated. 6 SSA overpaid
      these deceased individuals $405,357 in SSI payments for an average of 23 months. 7
•     21 were alive, and Medicare benefits should have been reinstated. 8 Medicare
      records were erroneously terminated for these living individuals for an average of
      43 months. 9
•     1 was being reviewed by our Office of Investigations (OI) for possible fraud.


4
    Social Security Act § 205(r), 42 U.S.C. § 405(r).
5
 A representative payee manages the finances for recipients who are unable to do so because of their
youth or mental and/or physical impairment. Social Security Act §§ 205(j)(1)(A) and 1631(a)(2)(A)(ii)(I),
42 U.S.C. §§ 405(j)(1)(A) and 1383(a)(2)(A)(ii)(I).
6
 Of these 30 deceased individuals, OI determined that 1 was deceased and was investigating another
case for possible fraud.
7
 SSI overpayments include all payments issued after the individual’s date of death and ranged from a low
of $570 to a high of $31,370. The number of months paid after death ranged from 10 to 37.
8
    Of these 21 cases, OI determined that 3 individuals were alive.
9
 For these 21 cases, months Medicare records were erroneously terminated include all months after SSA
entered the date of death on the individual’s record and ranged from 11 to 98 months.
Page 3 – The Commissioner


We also found that in 22 of the 52 cases, SSA’s records had different names, dates of
birth, or gender information. Therefore, Agency matches would not automatically
terminate the records due to death. Additionally, we found in some cases that SSA did
not correct records when notified that a recipient was deceased or alive.

SSI PAYMENTS ISSUED AFTER DEATH

SSA properly terminated the 30 deceased individuals’ Medicare records for death;
however, SSI payments continued. Table 1 summarizes these individuals by the
number of monthly SSI payments issued after the date of death.

                  Table 1: Deceased Individuals Issued SSI Payments
                  Number of Months SSI Payments         Number of
                       Were Made After Death           Individuals
                            1 to 6 months                    0
                           7 to 12 months                    2
                           13 to 18 months                   8
                           19 to 24 months                   6
                           25 to 30 months                   8
                           31 to 36 months                   5
                           Over 36 months                    1
                                              Total         30

We provided SSA information to terminate SSI payments for the 30 deceased
individuals. As of September 14, 2012, for 29 deceased individuals, SSA terminated
benefits and assessed more than $346,000 of the estimated $405,357 in overpayments
after death. 10 For the remaining case, we provided SSA information to correct the
record and requested appropriate action be taken. In addition, the Agency avoided
paying approximately $214,303 over the next 12 months by discontinuing these
incorrect payments. 11

For example, SSA’s records showed an individual from California died in
September 2010. SSA properly terminated the Medicare record; however, SSI
payments continued. According to this individual’s son, his mother passed away in
September 2010, and he contacted SSA to terminate her SSI payments; yet payments
continued.




10
  As of September 2012, SSA continues to review these cases. Therefore, we expect additional
overpayments to be assessed.
11
  This is the amount SSA would have paid the 29 deceased individuals had it not stopped benefits based
on action taken during our review. We calculated the savings by taking the last monthly overpayment
received by the beneficiaries multiplied by 12 months.
Page 4 – The Commissioner


In May 2012, we provided SSA information to terminate her SSI payments. In
June 2012, SSA corrected the records, terminated SSI payments, and determined this
individual was issued $1,042 in SSI payments after death—from October 2010 to
June 2012.

MEDICARE BENEFITS TERMINATED FOR LIVING INDIVIDUALS

SSA terminated 21 individuals’ Medicare benefit records for death, although they were
alive and receiving SSI payments. Terminating Medicare benefits incorrectly can lead
to unpaid medical bills and result in the loss of other assistance programs.

Table 2 summarizes these individuals by the number of months without Medicare
benefits.

                    Table 2: Living Individuals with Medicare
                          Record Erroneously Terminated
                 Number of Months Medicare
                                                      Number of
                  Benefits Were Incorrectly
                                                      Individuals
                         Terminated
                        1 to 6 months                      0
                       7 to 12 months                      2
                      13 to 18 months                      0
                      19 to 24 months                      5
                      25 to 30 months                      0
                      31 to 36 months                      8
                      Over 36 months                       6
                                            Total         21

Once we determined these 21 individuals were alive, we provided SSA information to
reinstate Medicare benefits. As of September 14, 2012, SSA had corrected the records
and reinstated Medicare for 19 individuals and continued reviewing the records for the
remaining 2 living individuals.

For example, SSA’s records showed a 68-year-old individual from California as
deceased on his Medicare record; however, this individual was alive and receiving SSI
payments. Because the Medicare record showed a date of death, this individual’s
Medicare and State medical benefits were terminated.

According to this individual, he visited a local SSA field office more than once and filed
paperwork to have his Medicare benefits reinstated; however, his Medicare benefits
remained terminated. As a result, this individual was unable to buy medication or obtain
treatment for his emphysema.
Page 5 – The Commissioner


In May 2012, we provided SSA information to reinstate this individual’s Medicare
benefits. In August 2012, SSA corrected the records and reinstated Medicare benefits,
which had been terminated for 23 months—almost 2 years.

POSSIBLE FRAUD

As of September 2012, OI continues investigating one individual whom we suspect is
deceased. If deceased, we estimate SSA overpaid this individual $17,000 in SSI
payments for 22 months.

For example, we telephoned this individual three times to determine her status and
received conflicting reports.

 During our first call, an individual requested we call back.
 During our second call, an individual informed us that the person we were trying to
  reach was not available and would be home later.
 During our third call, an individual informed us we had the wrong number and the
  person we were trying to contact did not live there and was probably deceased.

After these conflicting calls, we referred this case to OI.

CONCLUSION AND RECOMMENDATION
SSA needed to terminate SSI payments for some individuals whose Medicare benefit
records indicated they were deceased. The 52 cases we identified is a small number
(0.004 percent) in comparison to the 1.48 million SSI records SSA properly terminated
due to death when the death was also recorded on the Medicare record. However,
these cases required immediate action because of potential overpayments and/or loss
of medical benefits.

As of September 14, 2012, SSA took corrective action on 48 of the 52 cases.
Therefore, we recommend that SSA take corrective action on the remaining four cases.
Specifically, SSA should terminate SSI payments for the deceased individual, reinstate
Medicare benefits for the two living individuals, and take appropriate action on the case
referred to OI once its investigation is completed.

AGENCY COMMENTS
SSA agreed with our recommendation. See Appendix C.




                                           Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                           Appendix A

Acronyms
OI       Office of Investigations
OIG      Office of the Inspector General
SSA      Social Security Administration
SSI      Supplemental Security Income
U.S.C.   United States Code
                                                                                 Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed applicable sections of the Social Security Act and the Social Security
    Administration’s (SSA) regulations, policies, and procedures as well as other
    applicable Federal regulations.

•   Reviewed prior Office of the Inspector General (OIG) reports.

•   Matched a file of over 3 million Medicare records coded terminated due to death
    (LAF code X1 on the SSA’s Master Beneficiary Record) as of July 2011 against a file
    of Supplemental Security Income (SSI) records as of October 2011. This match
    identified 1,475,251 SSI records terminated due to death. In addition, this match
    identified 346 SSI records not terminated due to death that were in either current or
    suspended payment status.

•   Reviewed available electronic data for the 346 cases, including Old-Age, Survivors
    and Disability Insurance and SSI records, Health Insurance and Supplementary
    Medical Insurance records, and Social Security number records as of March 2012. 1
    Through this analysis, we narrowed the number of records to 52 individuals whose
    SSI payments continued even though SSA terminated their Medicare record due to
    death. Table B-1 provides a summary of the cases by State.

•   Requested on March 29, 2012 that SSA review these 52 cases. On April 6, 2012,
    SSA requested that we obtain additional information on the cases. To determine
    whether these 52 individuals were deceased or alive, we
                 mailed letters,
                 called available telephone numbers,
                 researched Internet sources, and
                 contacted State Bureaus of Vital Statistics.

•   Provided information to (a) SSA to either terminate SSI payments to deceased
    individuals or reinstate Medicare benefits for living individuals 2 or (b) SSA OIG’s
    Office of Investigations (OI) to investigate for possible fraud.



1
 The Health Insurance and Supplementary Medical Insurance record generates information from the
Centers for Medicare and Medicaid Services Enrollment Database.
2
  We provided SSA information to correct records throughout the audit. Specifically, we provided SSA
information on April 18, April 25, May 3, May 10, May 17, May 24, June 7, June 29, August 9, August 16,
and September 14, 2012.

                                                  B-1
•   Estimated the (a) amount and number of monthly SSI payments that SSA issued to
    deceased individuals and/or (b) number of months that SSA terminated Medicare
    benefits for living individuals. (Our estimates included all payments after an
    individual’s date of death and all months without Medicare benefits.)

                 Table B-1: Audit Population of 52 Individuals by State
                                                     Individuals
                                                      Referred
                                                                     Total
                                                       to OI—
                           Individuals Individuals                Individuals
                                                      Possible
              State         Deceased      Alive                     by State
                                                        Fraud
        Alabama                              1                          1
        California               6           4                         10
        Colorado                             1                          1
        Florida                              1                          1
        Georgia                              1                          1
        Illinois                 2           1                          3
        Indiana                              1                          1
        Massachusetts                        3                          3
        Maryland                 1                                      1
        Michigan                 2                                      2
        New York                 8           2           1             11
        Oklahoma                 1                                      1
        Pennsylvania             5                                      5
        South Carolina                       1                          1
        Tennessee                1                                      1
        Texas                    3           5                          8
        Washington               1                                      1
                   Total       30           21           1             52

We determined the computer-processed data were sufficiently reliable for our audit
objective. We conducted tests to determine the completeness and accuracy of the
data. These tests allowed us to assess the reliability of the data.

We conducted our review between March and September 2012 in Boston,
Massachusetts. The entities audited were the Office of Applications and SSI Systems
under the Office of the Deputy Commissioner for Systems and SSA’s field offices under
the Office of the Deputy Commissioner for Operations.

We conducted our review in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.

                                          B-2
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY
MEMORANDUM


Date:      September 18, 2012                                                               Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Supplemental Security Income Recipients Whose
           Medicare Benefits Were Terminated Due to Death” (A-01-11-01135)—INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Amy Thompson at (410) 966-0569.

           Attachment




                                                          C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“SUPPLEMENTAL SECURITY INCOME RECIPIENTS WHOSE MEDICARE
BENEFITS WERE TERMINATED DUE TO DEATH” (A-01-11-01135)

Recommendation

Take corrective action on the remaining nine cases. Specifically, SSA should terminate SSI
payments for the two deceased individuals, reinstate Medicare benefits for the four living
individuals, and take appropriate action on the three cases that were referred to OI once its
investigations are completed.

Response

We agree.




[OIG Note: In September 2012, SSA took corrective action in all but four of the
remaining cases. Therefore, we updated the report accordingly.]




                                               C-2
                                                                         Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division

   David Mazzola, Audit Manager

Acknowledgments

In addition to those named above:

   Kevin Joyce, IT Specialist

   Frank Salamone, Senior Auditor

   Katie Toli, Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-01-11-01135.
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
